<html>
<title> - NOMINATION OF HON. JULIE L. MYERS</title>
<body><pre>[Senate Hearing 110-556]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-556
 
                   NOMINATION OF HON. JULIE L. MYERS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                 ON THE

   NOMINATION OF HON. JULIE L. MYERS TO BE ASSISTANT SECRETARY, U.S. 
   IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. DEPARTMENT OF HOMELAND 
                                SECURITY

                               __________

                           SEPTEMBER 12, 2007

                               __________

        Available via http://www.access.gpo.gov/congress/senate

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs


                     U.S. GOVERNMENT PRINTING OFFICE
38-843 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
              A. Patricia Rojas, Professional Staff Member
                  Kristine V. Lam, Research Assistant
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                   Jennifer L. Tarr, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     4
    Senator McCaskill............................................    12
    Senator Akaka................................................    14
    Senator Voinovich............................................    17
    Senator Tester...............................................    19
Prepared statements:
    Senator Domenici.............................................    31
    Senator Pat Roberts, a U.S. Senator from the State of Kansas.    31

                                WITNESS
                     Wednesday, September 12, 2007

Hon. Julie L. Myers to be Assistant Secretary, U.S. Immigration 
  and Customs Enforcement, U.S. Department of Homeland Security:
    Testimony....................................................     5
    Prepared statement...........................................    32
    Biographical and professional information....................    37
    Responses to pre-hearing questions...........................    59
    Letter from U.S. Office of Government Ethics.................   168
    Responses to post-hearing questions..........................   169

                                APPENDIX

Additional letters of support submitted for the Record...........   200


                   NOMINATION OF HON. JULIE L. MYERS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 12, 2007

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:31 a.m., in 
room 342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Akaka, McCaskill, Tester, 
Collins, and Voinovich.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order. I know 
Senator Collins is on her way. I thank everybody for their 
patience as the Senate concluded its votes.
    Ms. Myers, welcome to this hearing on your nomination to 
continue as Assistant Secretary for U.S. Immigration and 
Customs Enforcement (ICE) at the Department of Homeland 
Security. As you have experienced firsthand, this Committee 
subjects nominees who come before it to rigorous scrutiny. 
During your nomination hearing in 2005, several Members of the 
Committee, including myself, raised concerns about whether you 
had sufficient experience and managerial ability to lead an 
agency such as ICE, a big, complicated, tough agency. I 
ultimately voted, respectfully, against your nomination in the 
Committee because of those concerns. As you know, the Senate 
never acted on the nomination, but the President did give you a 
recess appointment.
    So you have now been Assistant Secretary at ICE for more 
than a year and a half. The relevant criterion then now becomes 
whether you have been doing a good enough job running this 
important agency to have overcome, speaking for myself, my 
earlier concerns. All things considered, based on your 
performance and, I will say, on more than 20 interviews 
conducted by members of my staff of people both inside and 
outside of ICE and the government who have worked with you, I 
believe that you have what it takes to get this job done and, 
therefore, will vote to confirm your nomination.
    I have been impressed by your knowledge of the complicated 
issues facing ICE. You have provided thoughtful answers to our 
Committee's policy questions on a range of topics. Some of 
those staff interviews that I referred to were done with people 
who have worked within the system during your tenure at ICE and 
who are, therefore, close to you, including senior ICE 
managers, ICE field agents, advocacy groups from outside of the 
government, GAO officials, and representatives of the 
Department of Homeland Security Inspector General's Office.
    The reviews of your work from these people who are closest 
to it have been positive. People we have spoken to have 
described you as a talented executive with a strong work ethic 
and very good management abilities. You have recruited, I note, 
and empowered experienced and talented senior managers. You 
have clearly improved ICE's financial situation, bringing on a 
permanent Chief Financial Officer, reaching out to ICE 
auditors, and helping engineer a dramatic financial turn-
around.
    So I want to assure you that when we greeted each other 
before the hearing and I said you looked so much older and 
wiser---- [Laughter.]
    I only meant half of that. [Laughter.]
    Still, ICE remains an agency with challenges and with 
troubles. As the Committee that originated the legislation to 
create the Department of Homeland Security, we have a stake in 
seeing ICE realize its full potential, and we want to work with 
you to make sure that happens and that it happens as soon as 
possible. So I want to take just a moment to focus on a few of 
the agency's ongoing challenges.
    Created through an internal reorganization after DHS itself 
was established, ICE was forced to integrate the employees, 
missions, and cultures of core Customs programs at the 
Department of the Treasury and immigration programs at the INS. 
While various agreements have been drafted to delineate 
responsibilities between Customs and Border Protection (CBP) 
and ICE, additional work is needed, we conclude, to ensure 
proper communication and improved intelligence and information 
sharing between the two agencies.
    Another problem is employee morale, which according to 
surveys we have seen remains low. The Partnership for Public 
Service and American University in a survey of the best places 
to work in the Federal Government unfortunately ranked ICE in 
the bottom 10 out of 222 Federal agencies and sub-agencies 
rated. ICE ranked 213th on strategic management and 218th on 
performance-based rewards and advancement. These ratings are 
based on candid employee surveys. I understand that they may 
reflect in part the dissonance associated with the merger of 
the component agencies and some of the unhappiness certainly 
predates yourself, but it remains a real concern to the 
Committee.
    I am also troubled about the effect ICE's plan to 
restructure the Federal Protective Service and dramatically cut 
law enforcement positions will have on the security of Federal 
employees and buildings, and I would like to hear from you 
about that.
    ICE's responsibility for apprehending, detaining, and 
deporting undocumented immigrants is a very important mission. 
With approximately 12 million undocumented immigrants in the 
country but only 27,500 detention beds, there is a real 
necessity to reserve those beds for those who pose the greatest 
risk to the broader American community. For many of the others 
who must await a hearing before an immigration judge, we have a 
problem, and I do believe that we have to figure out ways to 
use supervised release programs or other alternatives to 
detention so those 27,500 beds are really being used for those 
who pose the greatest risk to the community and, of course, the 
greatest risk of whatever flight means in that case.
    We have a responsibility, according to our national values, 
to treat those we detain humanely, and there are some concerns 
there based on the record. Three people recently died while in 
immigration custody within weeks of each other, bringing the 
total number of deaths at ICE custody facilities since 2004 to 
65. This is a troubling record which raises questions, and I 
would like to hear more about your understanding of how that 
number occurred and what you are doing to improve it.
    When you appeared before this Committee in 2005, I also 
expressed my concern about the treatment of asylum seekers, 
those coming here, not sneaking across the border but literally 
coming to the border saying that they have escaped prosecution 
or persecution of one kind or another and they are seeking 
asylum in the United States of America. The Commission on 
International Religious Freedom, concerned about the number of 
asylum seekers who are seeking entrance into the United States 
because they contend that they have been punished, abused 
because of their religious faith, has reported that they are 
held in harsh maximum-security facilities along with criminals 
and are sometimes subject to mistreatment or arbitrary 
punishments, including excessive use of solitary confinement. 
In February, the Commission reported that most of its 
recommendations had not been implemented yet, 2 years later, 
giving ICE an overall grade of ``D'' for its progress.
    Because of my dissatisfaction on this matter, I introduced 
an amendment to the overall immigration reform bill which was 
considered by the Senate earlier in the year to improve the 
treatment of asylum seekers, a very unique category of people 
seeking to enter into the United States. After negotiating with 
the Department of Homeland Security, we did reach a compromise 
that was accepted by the full Senate by unanimous consent as an 
amendment to the comprehensive immigration reform bill. 
Unfortunately, the bill did not move forward in Congress.
    But I have recently spoken with Secretary Chertoff about 
implementing the reforms we negotiated, and he did agree with 
me to work with the Committee to do so as much as possible 
administratively. I also indicated to him that I would consider 
legislation to implement reforms that cannot be addressed 
administratively.
    Ms. Myers, many of the Commission's recommendations in this 
regard related to policy and programs under ICE's jurisdiction, 
and I am going to ask you to do all you can to support 
implementing the reforms that were embodied in the compromise 
that we negotiated with the Department.
    ICE is a vitally important agency with a daunting 
combination of missions and problems. The problems clearly 
predate your tenure at ICE. They are not of your making, but of 
course, if confirmed now, you will have the ability to solve 
many of them. I appreciate the efforts that you have made in 
the time you have been in there to address some of those 
problems. I know that you agree that you and we have a lot more 
to do before we can have any sense of satisfaction that we are 
where we want to be.
    I believe that given the limited time remaining in this 
Administration and given your demonstrated ability, commitment, 
and performance on the job, you have earned the right to 
continue leading this agency and hopefully to solve at least 
some of the problems that I have mentioned. I thank you for 
your service. I look forward to your testimony.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    Yesterday's observance of the September 11, 2001, 
anniversary reminds us that one vital feature of homeland 
security is having borders that are closed to our enemies yet 
open to our friends. The United States has some 6,000 miles of 
international borders. Nearly 10 percent of those miles mark 
the frontier of my home State of Maine. As a border State 
Senator, I understand the vulnerability of those long borders, 
but also of the importance of striking the right balance.
    As we saw in the Senate's recent debate on immigration 
reform, the American people emphatically consider border 
security and interior enforcement as critical issues. The vital 
work of coordinating interior enforcement with border security 
and forging effective partnerships with State and local law 
enforcement falls to the agency of Immigration and Customs 
Enforcement. Besides these important missions, ICE also combats 
drug trafficking, human smuggling, immigration benefit fraud, 
and international trade in child pornography, among other 
threats to our society. No wonder it is the largest 
investigative arm of DHS.
    A few days from now will mark the second anniversary of the 
Committee's first nomination hearing for Assistant Secretary 
Myers. As the Chairman has noted, the failure of the full 
Senate to consider her confirmation was largely based on 
concerns about whether or not she had adequate managerial 
experience. Now, however, her work for more than a year and a 
half as a recess appointee gives this Committee an on-the-job 
performance record to examine that was not available to us last 
time. Based on the interviews that the Committee staff has 
conducted, I have concluded that concerns about Ms. Myers's 
managerial experience have largely evaporated.
    Nevertheless, ICE faces huge challenges in conducting 
complex investigations of drug and alien smuggling networks, 
which can provide sources of revenue for terrorist 
organizations and avenues for terrorists to enter our country. 
Many smuggling organizations rely on fraudulent documents and 
attempts to fraudulently obtain immigration benefits.
    Last year, the Portland Press Herald in my State uncovered 
examples of companies applying for H-1B visas for employees 
when these companies appeared to have no legitimate business 
operations in my State. Therefore, I am particularly interested 
in hearing how ICE has targeted its investigative efforts on 
unscrupulous employers who have sought to commit immigration 
fraud.
    ICE has also been tasked with ensuring the detention and 
removal of an estimated 12 million illegal immigrants within 
our borders. Making this task even more daunting is doing so in 
a way that not only respects the law, but also is reasonable 
and fair.
    Another issue worthy of our attention is the release from 
State and local correctional facilities of illegal aliens 
charged or convicted of crime, even violent crime, after they 
entered this country. The DHS Inspector General has called this 
``an unofficial mini-amnesty program for criminals and other 
high-risk aliens.'' I call it an outrageous failure of Homeland 
Security.
    I applaud the Department's accomplishment in ending the 
flawed catch-and-release policy whereby illegal aliens were 
detained near the border only to be released with a summons to 
appear in court at a later date, where, of course, they almost 
never appeared. But the failure to remove these criminals after 
they have been caught by law enforcement and have actually been 
imprisoned must not continue. I look forward to hearing the 
Assistant Secretary's views on how we can correct this 
situation.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Collins.
    Secretary Myers has filed responses to a biographical and 
financial questionnaire, answered pre-hearing questions 
submitted by the Committee, and had her financial statements 
reviewed by the Office of Government Ethics. Without objection, 
this information will be made a part of the hearing record, 
with the exception of the financial data, which are on file and 
available for public inspection in the Committee offices.
    Our Committee rules require that all witnesses at 
nomination hearings give their testimony under oath, so Ms. 
Myers, I would ask you to please stand and raise your right 
hand.
    Do you swear that the testimony you are about to give to 
the Committee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Ms. Myers. I do.
    Chairman Lieberman. Thank you. Please be seated.
    Ms. Myers, the Committee welcomes your opening statement at 
this time.

TESTIMONY OF HON. JULIE L. MYERS\1\ TO BE ASSISTANT SECRETARY, 
 U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Ms. Myers. Thank you very much and good morning, Chairman 
Lieberman, Senator Collins, and distinguished Members of the 
Committee. It is my privilege to appear before you today to 
continue serving as U.S. Immigration and Customs Enforcement's 
Assistant Secretary. It has been my distinct honor to lead ICE 
for nearly 2 years, and I am grateful for the confidence placed 
in me by the President and Secretary Chertoff and the kind 
words that you offered in the beginning, Chairman Lieberman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Myers appears in the Appendix on 
page 32.
---------------------------------------------------------------------------
    As the largest investigative branch of the Department of 
Homeland Security and a relatively new agency, ICE has 
exceptional responsibilities for protecting the American people 
against terrorist attacks and criminal acts, broad law 
enforcement powers and authorities, an annual budget of nearly 
$5 billion, and over 16,500 employees. The men and women of ICE 
are some of the most dedicated public servants this country 
has, and it has been a privilege to work with each of them.
    When I appeared before you in September 2005, I committed 
to strategically strengthening the agency's operations, 
enhancing management and financial accountability, and to 
further integrating legacy components into one cohesive ICE 
culture. I am pleased to report that together with the 
management team I built and the dedication of all those who 
work with ICE, we have made substantial progress on each of 
these fronts.
    On the operational side, we have set new enforcement 
records while fostering innovation in carrying out the agency's 
mission. With respect to immigration enforcement, we have 
implemented a comprehensive interior enforcement strategy that 
is beginning to show significant results. The strategy focuses 
on reducing the criminal alien population, targeting the magnet 
of illegal employment, and dismantling the infrastructure that 
supports illegal immigration.
    To fulfill this strategy, we have expanded and prioritized 
within our Criminal Alien Program to cover all Federal 
detention facilities and completed a large risk assessment of 
all facilities in the entire country. We set new records for 
criminal forfeitures and fines against egregious employers, and 
we have established 17 document and benefit task forces to root 
out fraud and abuse.
    Under my tenure, we have also reengineered the detention 
and removal processes to support this strategy. This has 
involved adopting new business practices and enhancing internal 
oversight and accountability of our facilities. We have 
effectively ended the practice of catch-and-release along the 
borders. We set new removal records, removing more than 197,000 
illegal aliens from this country in fiscal year 2006, a 13 
percent increase over fiscal year 2005. And throughout, we have 
developed new comprehensive oversight procedures to ensure that 
ICE detainees are treated humanely and fairly, including new 
Quality Assurance Specialists in our largest facilities and the 
new Detention Field Inspection Group, an independent review 
mechanism housed within ICE's internal affairs office, 
dedicated solely to monitoring and inspection of detention 
facilities and treatment of individuals in ICE custody.
    ICE has made substantial progress in other investigative 
areas, as well. Keeping arms and strategic technology out of 
the hands of those who seek to do our country harm remains a 
top priority for us. During my tenure, the agency has set new 
records for arms and strategic technology investigations, and 
we project that fiscal year 2007 arrests and indictments in 
these cases to increase by over 70 percent.
    Recognizing that international partnership is also really 
the key to combatting the transnational crime, we have expanded 
our trade transparency units to combat trade-based money 
laundering with additional countries and we have provided bulk 
cash smuggling training overseas to attack worldwide narcotics 
networks. And during the past year, ICE's Federal Protective 
Service has continued to protect more than 8,800 Federal 
buildings that receive nearly 1 million visitors and tenants 
daily.
    Under my leadership, ICE has made swift and measurable 
progress, but credit is certainly due to the many groups that 
have collaborated with us, including our State and local 
partners and the private sector.
    With respect to enhancing management and financial 
accountability, we have created new senior management positions 
within the ICE leadership team in order to systematically 
upgrade our management capabilities to really meet the 
enforcement needs. We aggressively implemented a financial 
action plan designed to address the eight material weaknesses 
identified in the fiscal year 2005 DHS audit. By putting the 
right people in the right positions and by aggressively 
implementing our financial action plan, in fiscal year 2006, we 
successfully remediated six of the eight material weaknesses, 
and I anticipate that our results in the fiscal year 2007 DHS 
audit will continue to show progress. Other managerial 
improvements also included implementing industry-identified 
best practices that strengthened our overall hiring and 
discipline practices, providing enhanced training in critical 
areas, centralizing contracting practices within the Federal 
Protective Service, and filling a number of key SES and other 
leadership positions.
    These are but a few of the numerous ICE achievements. I 
believe that our successes are attributed in part to the 
growing integration of culture and unification of policies 
within the agency. Our international missions are now cohesive, 
making it more difficult for potential terrorists and 
transnational criminal groups to move themselves, their 
supporters, or their weapons across the Nation's borders. Our 
intelligence is becoming fully integrated both at headquarters 
and through the creation of new Field Intelligence Groups. We 
are starting to modernize our information technology, working 
to ensure that all legacy systems interface with one another 
appropriately. We still have much work to do in this regard and 
in all our goals, but we are making progress and we have come 
far.
    I want to thank you, the Members of Congress, for your 
recognition of the needs of ICE and for your view of the 
potential that this agency has in order to protect our country 
and to carry out our mission. I valued your oversight of our 
growth and progress, and the recommendations that you have made 
to us have allowed us to identify areas of improvement and 
implement many needed solutions.
    On a personal note, I would like to thank my husband and my 
son, my parents and my in-laws for their constant support as I 
have served as Assistant Secretary of ICE and express my 
deepest gratitude and thanks to the thousands of dedicated 
professionals at ICE with whom I have had the privilege to 
serve.
    In conclusion, I want to thank this Committee for its 
consideration of my nomination. If confirmed, I look forward to 
working closely with you to keep America safer. Thank you. And 
I would ask that my full statement be included in the record.
    Chairman Lieberman. Without objection, so ordered. Thank 
you for an excellent opening statement.
    I want to begin by asking the questions that are standard 
for all nominees. First, is there anything you are aware of in 
your background that might present a conflict of interest with 
the duties of the office for which you have been nominated?
    Ms. Myers. No.
    Chairman Lieberman. Do you know of anything, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Ms. Myers. No, I do not, Senator.
    Chairman Lieberman. Do you agree without reservation to 
respond to any reasonable summons to appear and testify before 
any duly constituted Committee of Congress if you are 
confirmed?
    Ms. Myers. Yes, I do, Chairman.
    Chairman Lieberman. Thank you, and I will begin with the 
first round of questions of 6 minutes for each member.
    Let me begin with the matter that I mentioned about asylum 
seekers and the report of the Commission on International 
Religious Freedom (CIRF). It is my understanding that Secretary 
Chertoff has asked Department officials to consider how the 
reforms that we had agreed to around the immigration bill can 
be implemented administratively. Do you know at this point what 
your role will be in that process?
    Ms. Myers. I understand that I will work with the 
Department, provide leadership on the areas where we are the 
lead, and provide ICE's view on areas where CIS may be the 
lead. I would mention that we thought there were many valuable 
things in the CIRF report. One thing that the progress report 
or report card failed to take into account were the steps that 
ICE had taken, and that was because at that time, ICE had not 
yet met with the members of the Commission. We did have the 
chance to then meet with them and talk about the steps that we 
were taking.
    In particular, the agency expects to very shortly announce 
a nationwide parole policy for these asylum seekers. One thing 
that I thought was valuable and true in the CIRF report was 
their concern about parole rates being radically different 
throughout the country, and so we worked on something that 
would standardize that consistent with the Commission's 
recommendations.
    Chairman Lieberman. Take a minute for the record to 
describe what parole means in this case.
    Ms. Myers. Well, in this case, we are talking about 
individuals who have been granted credible fear by Citizenship 
and Immigration Services, but are still going through the 
asylum process, and so for those individuals, the agency then 
determines whether or not detention is appropriate or whether 
or not bond or some other form of release is appropriate.
    Chairman Lieberman. Right.
    Ms. Myers. One thing that the Commission's report had noted 
is that there were some pockets of the country where almost all 
of these asylum seekers were detained and some pockets of the 
country where almost all the asylum seekers were released. I 
thought that the Commission's report raised a valuable point 
about looking at why that is, and when we looked as an agency, 
we thought we could do a better job in really standardizing 
what the guidance would be to make sure that we apply our 
policies and procedures equally across the United States.
    Chairman Lieberman. That is great news. So you intend soon 
to implement those uniform standards administratively?
    Ms. Myers. That is right. We are going through a final 
review by the lawyers, and I anticipate that that will be out 
very shortly.
    Chairman Lieberman. And again, I want to stress what you 
said, that these are people who come to our borders, say that 
they have been persecuted for religious or political reasons, 
and some administrative process has determined that there is 
some credibility to their fear. They are still going through 
the process, so I presume the intention of the uniform 
standards is to allow most of those to not have to be 
incarcerated while they are awaiting judgment unless there is 
some good reason to do so.
    Ms. Myers. Chairman, the intention of the standards is to 
make sure that we closely identify the factors that make 
detention appropriate or not appropriate in a particular case. 
Of course, many of the individuals who are granted credible 
fear ultimately do not obtain asylum.
    Chairman Lieberman. Correct. Understood.
    Ms. Myers. But I do believe that this parole policy is 
something that is consistent with the Commission's 
recommendations and it will be something that you and your 
staff will find favorable.
    Chairman Lieberman. Excellent. Let me go to a very 
different subject, which is the studies of employee morale 
which generally at DHS have been low, and I mentioned the one 
that particularly was not good for ICE. I want to know, what is 
your reaction to those and what you intend to do to try to 
improve the employee morale.
    Ms. Myers. Chairman, we took very seriously the findings in 
that review and also in an internal review that we conducted on 
our own. We are a new agency and so developing a cohesive ICE 
culture has been a challenge. I believe we have made 
substantial progress. I believe that has been noted by the 
unions that represent most of the ICE employees as well as by 
many of the officials that you have talked to.
    During my tenure, I have taken a number of steps to try to 
improve employee morale. The first has been to get a sense of 
what the needs are in the field. I formed an Assistant 
Secretary Advisory Group that looked to leaders all throughout 
the country and talked to them. What are the core concerns they 
have? What things do they think need to be improved and changed 
in order to make ICE an agency of excellence? If someone wants 
to come into law enforcement, we want them to come to ICE and 
stay at ICE throughout their career, and so I think hearing 
from the field and all our different disciplines has been a 
very helpful thing for that.
    The other thing that came up time and time again is that 
the management side of ICE was not strong when it was formed 
and that agents and officers in the field really felt a lack 
from unified agency policies and, frankly, from cohesive 
leadership, not only in acquisitions, but in CFO, IT, and the 
like. So we really strengthened that side in order to give the 
agents a sense of unified policies and also to give them the 
management support that they need.
    Chairman Lieberman. I have got a little time left but I 
have got a big question, so you can give a short answer. I was 
troubled to read in the GAO's recent review of the Department's 
overall progress that among the areas that GAO listed as still 
unachieved is the effort to implement effective visa security 
measures, and I wanted to ask you how do you respond to GAO's 
assessment that ICE has failed to successfully expand the Visa 
Security Program and is, therefore, not meeting its mission to 
enhance security of the visa issuance process?
    Ms. Myers. Mr. Chairman, I would tell you that the 
expansion of the Visa Security Units (VSU) has been a challenge 
of the agency since the beginning of its creation. In part, 
over the past 18 months, I think we have realized as an agency 
that we needed broader support within the inter agency and 
within the Administration in order to really get out to the 
highest-risk visa issuing posts.
    Over the past year, we have worked with the Department of 
State, the White House, and others to really gain the support 
of expanding the Visa Security Program and getting the 
ambassadors to agree and see that they add value. And to be 
frank, in the beginning of the program, that has been a 
challenge. The ambassadors are very tight for space, and they 
did not see how adding these Visa Security Units would really 
add value to their embassies. I think we have been able to show 
them how having these units in place really helps us identify 
threats that we didn't know were threats and get ahead of the 
curve before these individuals come into our borders. But I 
think that is due in great part to the support of the 
Department, the Department of State, and now the White House.
    VSU has issued a 5-year plan which, if we receive funding 
from Congress to do this, will allow us to cover 75 percent of 
the high-risk posts within 5 years. That is our goal. That is 
what we are seeking to do, and we are confident that when GAO 
comes and looks at this again, they will see substantial 
progress.
    Chairman Lieberman. What percent are we at now, would you 
say?
    Ms. Myers. I think we are at less than 25 percent. We are 
at eight countries at this point.
    Chairman Lieberman. We have got a ways to go. How much 
money is involved, do you know offhand, to support this 
expansion?
    Ms. Myers. This would be at least over $100 million. I can 
get you precise numbers.
    Chairman Lieberman. It is real important to do, an 
important investment in security. Thanks very much.
    Ms. Myers. Thank you.
    Chairman Lieberman. Senator Collins.
    Senator Collins. Thank you.
    Ms. Myers, I mentioned in my opening statement the removal 
of aliens who have committed crimes. This is an issue that the 
DHS IG has been quite critical of ICE for not doing more, for 
not focusing on State and local prisons as well as Federal 
prisons. Could you explain what steps ICE is taking under your 
leadership to ensure that criminal aliens in State and local 
facilities are identified and removed?
    Ms. Myers. Thank you, Senator Collins, and I share your 
concern about identifying criminal aliens while they are in our 
jails and prisons, before they get out into the streets in our 
communities. And under my leadership, a real transformation of 
the Criminal Alien Program (CAP) has been a very high priority 
for me and it has been a high priority as we have sought 
funding in the President's budget to expand the program.
    What we have done since I have been at ICE are several 
things. First, on the Federal side, and we are looking at 
risks. We looked at the Federal institutions first. And I 
discovered when I got to ICE, we only covered 30 of the 119 
Bureau of Prisons institutions in the country, and I thought 
that needed to be changed right away. We set up a center called 
the DEPORT Center, which leverages technology to screen aliens 
in all 119 Bureau of Prisons to make sure that no Federal 
prisoner leaves a Federal institution without having 
encountered ICE and without having gone through the screening 
process, going through the removal process, as well.
    Now, with respect to States, local, and county facilities, 
what I found when I arrived at the agency is that we did not 
have a full and complete understanding of where every single 
institution was in the country and, frankly, what the risk was 
at each of these institutions. What we have done is identify 
all the institutions in the country and then we have ranked 
them based on risk and the risk ranking looks at the number of 
aliens in the facility, if we know, otherwise, the total 
population, whether or not the facility is a State release 
site, whether or not it is close to another large city, and the 
like.
    And based on that, we have ranked all facilities into four 
risk categories and now we are systematically going through and 
looking at where are our gaps? How can we get to full screening 
at all institutions in the United States?
    I am pleased to say that this year, we have issued over 
135,000 charging documents to individuals in Federal, State, 
and local institutions. That is up from over 65,000 documents 
the year before. We have more than doubled. I think we need to 
think about this in terms of leveraging technology, leveraging 
our resources, and making sure we are at high-risk facilities.
    But, frankly, modernizing the CAP program and getting that 
to a place where we have full screening is one of the reasons I 
want to stay at ICE. I believe it is a very high priority for 
the agency, and I think we can make considerable and measurable 
steps.
    Senator Collins. Thank you. During the debate on the 
immigration bill, many of us learned the figure that there are 
nearly 12 million people in this country who are here 
illegally, whether they overstayed their visas or entered 
illegally in the first place. Now, there are those who have 
advocated that we should somehow try to locate, detain, and 
deport all 12 million people. There are others who have said 
that is simply not practical and it would be enormously 
expensive. Could you give us some idea of what the cost of 
trying to locate, detain, and deport all of the 12 million 
people who are here illegally would be?
    Ms. Myers. Senator Collins, it is certainly difficult to 
give what I think would be a precise number with respect to the 
costs of locating, removing, and detaining individuals. In 
terms of very rough calculations, our agency has estimated that 
it would cost at least $94 billion to engage in locating, 
detaining, and removing all these individuals.
    Now, this model is quite rough. It doesn't take into 
account, for example, if ICE were given really substantial 
resources so that the illegal alien population thought, in 
fact, ICE was actually going to enforce against every single 
person here, whether or not there would be some kind of 
deterrence created in that and whether or not, then, in fact, 
there would be incentives for individuals to leave the country 
on their own or to, once they have left the country, not come 
back in. The model also does not take into account all the 
things that the Border Patrol has done and the Secretary's 
Secure Border Initiative. So it is simply a very rough model, 
looking at our average costs of detention and our average costs 
based on length of stay.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks, Senator Collins.
    In order of arrival, Senator McCaskill.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. First, I want to recognize that you have 
great roots near Missouri. We claim the area over on the other 
side of the line in the Kansas City area as part of the greater 
Kansas City region, so I recognize that you are like someone 
from a part of the country that I care very deeply about. I 
also know that your husband is--you are struggling with a young 
child and the two of you having big jobs in different places, 
and I appreciate the sacrifices your family is making in that 
regard. Having been in your position, having young children 
with a very big job, I know that it is really hard and I know 
your family has to be there for you. So please tell them for me 
that I appreciate the sacrifice they are making in the name of 
public service.
    Ms. Myers. Thank you, Senator.
    Senator McCaskill. I notice in your statement and I notice 
the rhetoric coming out of Homeland Security that you have 
targeted the magnet of illegal employment as an important part 
of your strategy. How many employers spent a day in jail for 
hiring illegal immigrants in the United States of America?
    Ms. Myers. Senator, I can't tell you that. Our statistics 
were tracked based on criminal and civil convictions, so we 
look at criminal convictions of all types from worksite 
enforcement and administrative convictions of all types. I will 
tell you that this year so far, we have had over $30 million in 
criminal fines and forfeitures. Compare that to the last full 
year of the INS, when it was only $600,000.
    Senator McCaskill. Well, how many employers does that 
represent, the $30 million?
    Ms. Myers. Senator, I can't tell you that at this time. I 
would be happy to get back to you. I can tell you that in the 
last several weeks, almost every week, we have had an instance 
where we have indicted a manager or convicted a manager at one 
level or another.
    But I sense from your question that you have frustration in 
this area, and I will tell you that I agree with you on 
targeting egregious employers, getting U.S. Attorneys to take 
those cases in order to really make a difference there. I 
believe we are starting to see a shift. Those cases, like many 
Federal criminal investigations, do often take longer than the 
agents would like to bring them to conclusion and to then see a 
final disposition.
    The bottom line is, though, we are looking to change 
behavior, and I think we are seeing some very positive things 
just by the way of examples of large companies changing their 
business behavior, changing their practices to stop employing 
illegal aliens.
    Senator McCaskill. I have got to tell you, I have spent a 
lot of time as a prosecutor, and I don't buy it. It is, I 
think, outrageous that you would come to a confirmation hearing 
in front of the U.S. Senate and not know how many employers in 
this country have been criminally prosecuted. The idea that you 
are keeping statistics that are lumping together the immigrants 
that you are arresting in the workplace with the employers is 
masking the fact that this has not been a priority and 
continues not to be a priority.
    I know, for example, that 537 people in Missouri were 
charged last year for kids using IDs in bars. Now, think about 
the similarity. I can imagine these employers are going to say, 
well, gosh, all kids look about the same age, and gosh, fake 
IDs are so good, and gosh, all these fake IDs, how do you 
expect us to be accountable for figuring out who has a fake ID 
and who doesn't? But yet 537 employers in Missouri were charged 
last year for fake IDs for people who were trying to have a 
drink, but yet we can't tell the American people how many 
employers have spent a day in jail?
    It is, in fact, a major failure that anyone would think 
that the statistics of immigrants that are arrested in the 
workplace translate to actions against the employer. And I have 
read every word that you have said and written about this and 
everything is anecdotal. Is it possible for you to go to 
Justice? You were in charge of the Criminal Division at the 
Justice Department. You worked with all the U.S. Attorneys. 
Isn't it possible to pick up the phone and ask the U.S. 
Attorneys or send an e-mail to the U.S. Attorneys for them to 
forward every example of an employer that spent a day in jail 
for hiring illegal immigrants in the United States of America?
    Ms. Myers. Senator, I certainly understand your concern. I 
will tell you what is not anecdotal is the amount of criminal 
fines and forfeitures against employers, $30 million against 
those employers, and that we are taking steps each and every 
day to make good progress. I share your frustration with 
respect to individuals that spend a day in jail. Obviously, 
that does reside in the Justice Department, in the judges that 
make the determination of how long individuals will be 
sentenced.
    With respect to our statistics, the way we track statistics 
is through the type of investigation, be it worksite, money 
laundering, drug cases, and the like, and the kind of charge 
that it is, if it is a criminal charge or if it is an 
administrative charge.
    Senator McCaskill. But you understand there is a major 
difference between an illegal immigrant who is trying to get a 
job to feed his family and an employer who repeatedly and 
knowingly hires people with bad papers, and trust me, we make 
much more difficult cases in this country. The prosecutors in 
this country are up to this task. If they get direction from on 
top that this is a priority, trust me, the prosecutors can make 
these cases. They can prove that the employer knew that was a 
ridiculous Social Security number, that they knew that the 
Social Security number had been used five times by various 
employees in their facility.
    The employers of this country can be deterred. They are not 
being deterred now because I am not convinced, just by virtue 
of the way you keep statistics, that it is not a serious issue 
with this Department.
    Ms. Myers. Senator McCaskill, I certainly appreciate your 
concern. What I am telling you is that I think we have made 
substantial progress. There is no doubt that there are many 
more steps that we need to take. I think we are seeing changes. 
I will tell you that we separate administrative arrests, so 
when you talk about people who just are working in an 
institution and they are illegal, those are administrative 
arrests. Those arrests are kept separate than criminal arrests.
    We do believe that it is a significant case. It is a 
problem when there are aliens who are working who are using the 
identities of real U.S. citizens and causing those U.S. 
citizens harm or when there are criminal aliens who are subject 
to 8 U.S.C. 1326 or other violations, that they are causing 
this country harm.
    Senator McCaskill. Well, I am----
    Ms. Myers. One of the things that we often look to do--I am 
sorry, Senator.
    Senator McCaskill. That is OK. I am out of time, but I am 
hopeful, can we do another round?
    Chairman Lieberman. Yes.
    Senator McCaskill. Great. OK. I will be back. Thank you.
    Chairman Lieberman. Thank you. Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
add my welcome to Ms. Myers, and I want to convey my 
appreciation to you for all you have done thus far.
    Mr. Chairman, I would ask that my statement be placed in 
the record.
    Chairman Lieberman. Without objection, it will be, Senator. 
Thank you.
    [The prepared statement of Senator Akaka follows:]
                  PREPARED STATEMENT OF SENATOR AKAKA
    Thank you, Mr. Chairman. I join you in welcoming Ms. Myers and her 
family and friends today.
    Ms. Myers, as you know, when you first were nominated for this 
position in 2005, I had significant concerns that you lacked the 
extensive management experience required to lead such a large, 
complicated, and important agency as ICE. Because of these concerns, I 
voted against reporting your nomination out of this Committee in 2005.
    My staff and I have looked closely at your performance at ICE, and 
I have concluded that you have performed adequately in your role. I 
appreciate your efforts to address the concerns that many of us on this 
Committee had during your previous nomination process, and I want to 
thank you for taking the time to meet with me earlier this month.
    I am pleased that you have focused energy on tackling ICE's 
difficult management challenges and have made progress in some areas. 
In particular, at your nomination hearing in 2005, I highlighted my 
concerns with ICE's financial difficulties. Under your leadership, 
ICE's financial management has improved considerably, although there is 
still more to do.
    In 16 months, DHS will undergo its first transition between 
presidential administrations. This transition will only complicate the 
considerable management challenges that ICE and DHS face. As the 
transition to the next presidential administration draws closer, 
continuity of leadership becomes increasingly important. I believe the 
American people will be best served if you are able to continue in your 
position to see this transition through, rather than having a new 
leader who would have to learn how to manage ICE at the same time as he 
or she prepares to hand over the reigns to the next administration.
    I do continue to have some concerns about aspects of ICE 
operations, which I hope you will address at this hearing.
    I am concerned by ICE's plans to continue downsizing the Federal 
Protective Service workforce. We cannot afford to put our Nation's 
federal buildings--and the thousands of federal workers and visitors 
inside them--at risk.
    Additionally, a recent DHS Inspector General report highlights 
problems with ICE cooperation with the FBI in terrorist financing 
investigations. I hope that you will address what you are doing to 
correct this situation.
    Finally, I am troubled by reports of harsh treatment of immigrants 
during immigration raids and reports that immigration detention 
standards are not uniformly enforced. Although I recognize the need for 
more aggressive enforcement of our immigration laws, every man, woman, 
and child taken into custody must be provided humane and dignified 
treatment. Our obligations to children are even greater because of 
their vulnerability. Alternatives to detention, such as electronic 
monitoring, can and should be used wherever possible to avoid 
separating families or taking immigrant children into custody.
    These three problems point to the need to heighten oversight of ICE 
contractors and to provide better training for ICE employees. You have 
received strong support from leaders within DHS, but I am concerned 
that you need to do more to improve lines of communication with the 
boots on the ground. I hope that if confirmed, you will redouble your 
efforts in this area.
    I look forward to this opportunity to hear from Ms. Myers. Thank 
you Mr. Chairman.

    Senator Akaka. I note that my statement shares some of the 
concerns of our Chairman having to do with the FPS downsizing 
and also immigration detention conditions. I would like to 
discuss those issues later. But to your husband, John, and your 
son, Connor, and your family, please convey our appreciation 
for what they do to help you do your job.
    A July 2007 DHS Inspector General report stated that ICE 
agents in Miami and Los Angeles refused to assist the FBI in 
terrorism financing cases that were transferred from ICE to a 
Joint Terrorism Task Force led by the FBI. For me, this is a 
distressing report. I understand that these cases preceded you 
in the job. Ms. Myers, can you tell me why this happened and 
what you are doing to address this problem?
    Ms. Myers. Thank you, Senator Akaka. I certainly share your 
concern upon reading the Inspector General's report about nine 
incidents back in 2002 and 2003 where there were potential 
problems in sharing of information on terrorist financing 
cases. Immediately after receiving the final copy of the 
report, I did speak to leadership over at the FBI. My senior 
leadership did, as well. And I believe that we have a very good 
relationship with the FBI at this point in time on terrorist 
financing cases, that we share information. In fact, ICE is the 
second-largest participant in the JTTF, second only to the FBI, 
with 215 individuals that work on this on a day-by-day basis.
    I can tell you that we were pleased that the IG said at 
least there was no evidence that any of the minor bickering 
back in 2002 and 2003 actually affected any national security 
investigations, and I would tell you that is not going to 
happen under our watch, under the leadership of Marcy Forman, 
John Clark, and others. I believe we have a great relationship 
with the FBI at this point in time.
    Senator Akaka. You have made my point here. I have heard 
this issue repeatedly--ICE headquarters may set reasonable 
standards, whether for cooperation in terrorist financing 
cases, conducting worksite immigration raids, or for immigrant 
detention conditions, but those standards are not always 
followed in the field. Hiring qualified people and providing 
them good training--I am glad you mentioned putting the right 
people in the right jobs in your units. That and training are 
two of the most important ingredients for getting field 
employees to follow the standards that you set at headquarters. 
What are you doing to improve recruitment and training for ICE 
employees?
    Ms. Myers. Senator Akaka, I think one of the things that I 
have done that has made the biggest difference in the 
recruitment and training of ICE employees is the hiring of 
Charlie DeVita, a very seasoned official with a lot of 
expertise in training, as our head of the Office of Training 
and Development in ICE. Under Charlie's leadership, we have 
really been able to centralize training within ICE--before, it 
was really decentralized--and bring together, I think, more of 
one ICE culture.
    With respect to recruiting, unfortunately, in the early 
years of the agency, there wasn't a lot of money to do very 
active recruiting, but we have now taken a lot of steps to go 
out to conferences, to be out there to recruit, and just 
yesterday I signed an agreement with three historically black 
colleges and universities to develop a new mentorship program, 
where we are working with students in those universities that 
are criminal justice majors to try to get them internships and 
then encourage them to come to ICE and stay at ICE.
    Senator Akaka. ICE cooperation with other components of 
DHS, such as Customs and Border Patrol and U.S. Citizenship and 
Immigration Services, is critical to ICE and the success of 
ICE, as well. I have long believed that rotational programs can 
be a very effective way of improving communication and 
coordination between agencies that work together. Does ICE have 
a rotational program for employees or any plans to start one?
    Ms. Myers. We certainly, Senator, have employees detailed 
throughout the Department where they get a bird's-eye view of 
other components, issues that go on there. We are also a part 
of the Department's SES Management Development Program, and I 
know you probably heard the Secretary say we are encouraging 
our senior leaders to spend some time in a different part of 
the Department of Homeland Security in order to make sure that 
when they come back to their individual component, they can 
really understand the needs and concerns of the other parts of 
the Department. We encourage these programs. We value them.
    Within ICE, we have our own Management Development Program, 
which for our young leaders has a rotation even within ICE, 
because the work of the Office of Intelligence is very 
different in many respects than the work of Detention and 
Removal, to give them a sense of the challenges and 
opportunities that these other folks face.
    Senator Akaka. Thank you for your responses.
    Ms. Myers. Thank you.
    Chairman Lieberman. Thank you, Senator Akaka. Senator 
Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Mr. Chairman.
    Ms. Meyers, I want to say how pleased I am with the 
progress you have made during your tenure. I know I had some 
questions about your experience when you first appeared before 
this Committee. You convinced me that you could get the job 
done. You have done a terrific job. I am grateful for your 
service and that you are committed to continuing to serve the 
Department at a time when many are leaving the Administration.
    I hope that you are thinking about the upcoming transition. 
I hope you have enough qualified SES personnel around that you 
can continue the progress you have made until the next 
administration selects your successor. That is why Senator 
Akaka and I have been working on legislation to establish a 
Chief Management Officer at DHS so that we can make sure 
progress continues. For the record, I would like you to provide 
me with metrics that you can use in the next administration to 
determine whether or not the Department is continuing to make 
the progress that you hope to see made because I know some of 
your goals for ICE will not happen until well in the future.
    You have done a terrific job improving financial management 
at ICE. For the record, I would like to know how you have 
accomplished your financial goals and whether or not Under 
Secretary Schneider is privy to what you have done to see if 
DHS can use your work as a role model for other agencies within 
the Department to improve their financial management.
    Senator McCaskill mentioned this whole issue of employer 
enforcement. Recently, I had a conversation with a man who 
bought a new company with about 300 employees. Because he 
believed that some of the employees were working illegally, he 
asked for verification of their work status. Approximately 125 
of the employees failed to show up for work. Then he started 
working with the Social Security Administration (SSA) and found 
that some of the numbers for the employees that SSA had didn't 
match the individuals, and he informed Social Security of his 
intention to terminate their employment. In response, Social 
Security told him not to bank on their information because it 
may not be correct. Well, he got rid of them.
    There is a great deal of uncertainty out there today among 
employers about enforcement policy and how they verify 
eligibility. I would like to know what ICE is doing to clarify 
the rules so employers and individual employees aren't in the 
dark.
    Ms. Myers. Certainly, Senator Voinovich, I think the agency 
has taken a number of steps over the past year to really start 
educating companies about what the best practices are, and I 
believe, just like the man in your example, I believe most 
employers want to do the right thing, but sometimes they feel 
like they don't have the information they need in order to 
figure out what it is they can legally and permissibly do.
    We have put on our website ICE's list of best practices, 
and we are working with a small group of companies to identify 
further best practices. We also believe that the proposed ``no 
match'' rule, which is currently the subject of litigation, is 
also something that will give employers clarity. Previously, 
they had said when they receive a ``no match'' letter, they 
don't know what steps to take. Under the ``no match'' 
regulation, it provides guidance to employers who, if they act 
as a reasonable employer as identified in the regulation, the 
agency will find that there is a safe harbor for them.
    Senator Voinovich. Well, I would appreciate if you would 
increase your efforts to communicate with employers. The more 
information you can provide to them and through their various 
publications, the better off I think everyone is going to be.
    The other thing I would like to raise is Visa waiver 
reform. During debate on the provision, one of the things that 
we discussed was the fact that we needed to do a better job 
keeping track of folks overstaying their visas. What are you 
doing to go after individuals who illegally stay here in this 
country and violate their visa requirements?
    Ms. Myers. We have a Compliance Enforcement Unit at ICE 
which focuses on visas overstays, including visa waiver 
violators, students, and others. We work very closely with US-
VISIT, who provides data to us through their Data Integrity 
Group on information, particularly on entry, but also in some 
cases on exit data that they do have to look and target based 
on information we receive from law enforcement and the 
intelligence community about individuals that may be of highest 
risk. And, of course, day in and day out, when ICE employees 
are out enforcing the law, if we run into a visa violator, we 
then take action there, as well. But I would mention that last 
year, we arrested over 1,700 individuals for overstaying their 
visas, which I believe was over 60 percent more than the year 
before.
    Senator Voinovich. Great, and you will probably have more 
results in this area because we are going to be keeping better 
track of overstays.
    Ms. Myers. That is what we hope, that we are keeping better 
track and so people will hopefully obey the law more and then 
we will be able to enforce, when necessary.
    Senator Voinovich. I understand you have established a new 
Office of International Affairs to better coordinate with 
foreign partners. Could you just give us a thumbnail on that?
    Ms. Myers. Absolutely, Senator. One of my concerns when I 
came into the agency was that our International Affairs Office 
was underneath the Office of Investigations, and so there were 
some times when our attaches overseas needed to be involved in 
repatriation efforts or things that involved detention or 
removal. They didn't have that sort of information because the 
office was placed underneath the Office of Investigations.
    What we have done is made the Office of International 
Affairs a stand-alone unit so it is responsive to all parts of 
ICE. If the lawyers need information in order to pursue a case 
against an individual who may have a wrongful claim, the 
attaches can help with that. This also means that there is one 
voice in the Department to work with the DHS Office of 
International Affairs.
    Senator Voinovich. Thank you.
    [The prepared statement of Senator Voinovich follows:)

                PREPARED STATEMENT OF SENATOR VOINOVICH

    Assistant Secretary Myers, thank you for being here today.
    When you first came before the Committee, many, including myself, 
questioned whether you had the experience to get the job done. Since 
that time, I have had the opportunity to meet with you on multiple 
occasions, and I have been impressed with the strong leadership record 
you have established over the past year and a half as Assistant 
Secretary for Immigration and Customs Enforcement. You have 
demonstrated progress in both operational and management functions, and 
your achievements deserve recognition by the Committee.
    I look forward to your confirmation by the full Senate so that you 
may continue your important work enforcing our nation's immigration and 
customs laws.

    Ms. Myers. Thank you.
    Chairman Lieberman. Thanks, Senator Voinovich. Senator 
Tester, good morning.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. I want to thank the Chairman. It is good to 
see you here, Ms. Myers, and I would ask the Chairman that my 
written remarks be put as a part of the record.
    Chairman Lieberman. Without objection. Thank you.
    [The prepared statement of Senator Tester follows:]
                  PREPARED STATEMENT OF SENATOR TESTER
    Mr. Chairman, thank you. I want to welcome Ms. Myers. Ms. Myers, it 
is good to see you again.
    She and I had a chance to meet last week to discuss her nomination, 
and I told her that unless anything highly untoward comes up between 
now and the Committee's vote, I will be supporting her confirmation.
    I would also add that since Ms. Myers has been on the job already 
for 19 months, and since the Department of Homeland Security has an 
untenably high rate of vacancies in top jobs, I do not believe that it 
makes any sense to delay or prevent this nomination from moving 
forward.
    Furthermore, Immigration and Customs Enforcement has received 
relatively high marks on a number of criteria used by GAO, and the 
Senate Appropriations Committee has noted an improvement in ICE's 
budget management--much of which has occurred on Ms. Myers' watch.
    That is not to say, however, that Ms. Meyers should be confirmed 
without addressing some difficult questions.
    As the head of ICE, Ms. Myers is responsible for overseeing the 
enforcement of our immigration laws. While there have been a few 
isolated raids on employers in the last couple of years, these appear 
to have been relatively haphazard. They also distract us from the fact 
that, 6 years after 9/11, there still appears to be no systematic means 
for tracking down and repatriating those individuals who overstay their 
visas. It bears repeating that several of the 9/11 hijackers were in 
this country after overstaying their visas.
    That is simply not acceptable, and I hope it will be a focus of Ms. 
Myers' remaining time at the Department.
    I know that President Bush and others in the Administration--as 
well as some on this side of the aisle--have expressed a desire to 
focus the resources of ICE on those who would do harm to the United 
States, rather than on those who have come to this country to seek 
employment. But it is extremely difficult to make that determination 
when you are dealing with someone who drops off the grid when their 
visa expires.
    On a second matter, Ms. Myers, can you address the impact of border 
staffing on ICE's operations?
    I understand that you are not directly responsible for border 
staffing decisions. But ultimately, we all know that staffing shortages 
on the border create real problems for your investigators--insufficient 
staffing lets more illegal immigrants into the country, and more goods 
smuggled in.
    For example, the GAO just found that ICE has not yet developed a 
good strategy for addressing smuggling of illegal aliens into this 
country. That's on ICE--even though CBP is directly responsible for 
stopping smuggling at the border.
    How do you view ICE's role in encouraging and working with the rest 
of DHS to ensure that problems in other areas of DHS do not become your 
problem?

    Senator Tester. Ms. Myers, it is good to see you again. We 
had the opportunity to visit a little last week, and I told you 
then, unless something particularly comes up that I can't live 
with, I will be supporting your nomination. I think if you take 
into consideration the particularly high rate of positions that 
need to be filled in the Department of Homeland Security, I 
think there is really no reason to prevent your nomination from 
moving forward, and I think you have done a great job. I think 
there have been a lot of reports from the Legislative Branch 
that have pointed that out, and I applaud your efforts over the 
last 19 months.
    A couple questions. One dovetails onto what Senator 
Voinovich was talking about with overstay of visas. As we 
talked last week, if my numbers are right, there are about 12 
million illegal aliens. Four-and-a-half million of them 
overstayed their visas. It is a particular concern of mine. You 
said that you have a Compliance Division that monitors the 
overstays. My question is how effective is that monitoring and 
how effective do you hope it to be and what do you use to 
measure the effectiveness of your Compliance Division?
    Ms. Myers. Senator Tester, I believe that our Compliance 
Enforcement Division, which was created when the agency first 
started, but which has really grown and had considerable 
oversight over the several years ICE has been in existence, has 
become more and more successful, but there is room to grow.
    One of the things that has been really critical in the last 
few years was the improvement of the data from US-VISIT that we 
get from their Data Integrity Group. We would often get leads 
from them. It used to be that a very high percentage of those 
leads were very bad leads. The individual had already left the 
country, the individual is not in violation of their status, or 
the like. They have radically improved the quality of leads 
they send to us, meaning the leads we are able to then work at 
headquarters and send to the field are much more effective.
    We also spent a lot of time over this past year looking at 
our student program and looking at, frankly, the methods we use 
with the institutions, the tracking of them, and whether or not 
the institutions get the information that they need. I am 
pleased to say that we have seen that the institutions are 
doing a pretty good job with respect to their responsibilities 
under the Student Visa Program.
    Senator Tester. Well, I may have relayed this to you last 
week, but over the August recess, I met with several business 
people, in fact, a room full of them, that were in an area 
where the unemployment rate is about 2.5 percent, and 4 percent 
is full employment, so we have got 1.5 percent of the people 
that really don't want to be working that are. I guess that is 
what that means. And they cannot find help. One of the points 
they made to me was that there is no tracking, and it is very 
limited. I think that is critically important because I think 
it puts the whole legal immigration system at risk, much less 
our national security at risk. So I would appreciate anything 
you can do in that area, whether it is through your Department 
or another Department, to start tracking these folks after 
their visas run out because I think it is very important.
    The second issue deals with border staffing, and I know you 
don't personally do the staffing on the border, but can you 
tell me how border staffing impacts you and if we are even 
close to being up to a reasonable number on either border, as 
far as that goes, as far as the job that you are able to do and 
be successful?
    Ms. Myers. Well, like any law enforcement agency, we always 
feel that we could use more resources with the generosity of 
Congress. Certainly on the northern border, I believe that 
Customs and Border Protection and ICE have put increased 
emphasis on the northern border to make sure that we are 
managing the responsibilities up on the northern border as well 
as we can. It is my understanding that Customs and Border 
Protection is significantly going to be increasing their 
resources on the northern border. That affects us because they 
are the interdictors. We do the investigation. So when they 
hand things off to us that they find either through inspection 
or through the work of the Border Patrol, we then take that to 
move on for investigations.
    Senator Tester. Do you ever advocate for more personnel, 
even though it is not in your Department, to be able to do your 
job better?
    Ms. Myers. I certainly work within the confines of the 
process of the Department. I work very closely with CBP and CIS 
and also advocating on behalf of the Justice Department. If 
there is nobody to prosecute our cases, it is hard for us to be 
successful. If there is nobody to interdict things, it is hard 
for us to do the investigations.
    Senator Tester. OK. Well, it is apparent to me that we need 
some more folks, to be honest.
    There was a little discussion, I think it was by Senator 
Collins, about criminal alien versus illegal alien. Is there a 
difference?
    Ms. Myers. Well, when I was speaking with Senator Collins 
about our Criminal Alien Program, I was speaking in particular 
about aliens who are currently in jail as opposed to aliens who 
may have committed other crimes who are out on the street, or 
as opposed to aliens who may have committed a crime simply by 
their method of entry into the country.
    Senator Tester. Do you concern yourself with the ones who 
haven't committed a crime yet but are illegal aliens that--I 
will give you an example, not that this is accurate, but I will 
give you an example. Somebody might get picked up because they 
had a parking ticket or something along those lines, which 
brings a driver's license in, but it is a very minor offense. 
Do you concern yourself with those folks?
    Ms. Myers. I believe it is our responsibility to enforce 
the law all across the board. We obviously have limited 
resources, so we prioritize based on national security and 
public safety. But we do enforce all across a wide range of 
violations depending on our ability to then respond.
    Senator Tester. I am out of time. I just have a quick 
follow-up on that, Mr. Chairman. So your resources are probably 
pretty well tapped out with just the real bad guys, so does 
anybody deal with the folks who are illegal? If I am a county 
sheriff and I call up and say, you know what? I just stumbled 
across this dude. I can't hold him because he hasn't really 
committed a crime or she hasn't committed a crime. Is there 
anybody that deals with that?
    Ms. Myers. Senator, in many instances, we are then able to 
respond whether or not the individual has a criminal record. It 
depends on our resources in the area and what the agents are 
doing. I will tell you, we believe we are making significant 
process. We are resource challenged. We have 16,500 employees. 
There are over 12 million illegal aliens. We have the 
responsibility of covering 3.5 million square miles and 780,000 
State and local law enforcement officials. So we are resource 
challenged. We believe it is appropriate to prioritize based on 
national security and public safety. We have things like the 
Law Enforcement Support Center, which allows State and local 
officials to call and find out whether or not the individual 
has a background issue or a criminal offense, and we have the 
287(g) program, which will be up to 32 agreements with 
localities by the end of this year.
    Senator Tester. OK, Ms. Myers. We will have another round. 
I am going to come back to this resource question when we come 
back.
    Chairman Lieberman. Thanks, Senator Tester.
    That completes the first round. We will go to a second 
round. I want to say to you and Members of the Committee that I 
have questions, but I am going to submit them for the record 
because I have a plane to catch, as you probably know. The 
Jewish holiday begins tonight in which we begin a process of 
asking forgiveness from God for any of our shortcomings. If I 
don't get on that plane, I will have to ask forgiveness from my 
wife. [Laughter.]
    So Senator Akaka will chair, and I thank you very much. We 
will attempt to move your nomination as quickly as we can.
    The obvious thing to say is that you have impressed all of 
us over the time you have been in office. But the other obvious 
thing that you know and live with every day is that you are on 
top of an organization that is critically important to the 
people of this country. I mean, it is obviously critically 
important insofar as there are elements of law and justice here 
that we are all about, but you are touching both matters of 
fundamental national and personal security, but also on 
questions of immigration, very passionately felt concerns. 
Therefore, the devotion and the urgency with which you continue 
to do your work is really very important to our country, more 
than really most people, including some, frankly, who come 
before us for consideration for offices that some might 
consider more prominent or more important. You have awesome 
responsibilities, and I thank you for the good job you have 
done, and I look forward to working with you in the next year 
and a half.
    Ms. Myers. Thank you.
    Chairman Lieberman. Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman. I, too, want to 
ask for forgiveness, and if it appears that I am being hard on 
you, I apologize. I just am tremendously frustrated with the 
failure of this Administration to prioritize employer 
enforcement, and I don't sense, since no one is bothering to 
even keep the statistics, that it has changed much. Even though 
you can cite anecdotally some cases and you can cite a number--
I believe the number is 716 arrests last year, total?
    Ms. Myers. That is 716 criminal arrests, 3,667 
administrative arrests.
    Senator McCaskill. I want to focus on the criminal arrests. 
The 716 criminal arrests includes people who have made 
fraudulent documents that you have charged with a crime----
    Ms. Myers. If they are encountered through the course of a 
worksite enforcement investigation, we conduct a lot of other 
kinds of fraudulent document investigations that would not be 
counted under the worksite enforcement code.
    Senator McCaskill. But that also, the 716 includes all the 
illegal immigrants you arrested at George's Chicken in 
Missouri, correct? That would include that number?
    Ms. Myers. No, it would include----
    Senator McCaskill. The five that pled guilty.
    Ms. Myers. The five that pled guilty--well, they would be 
included in the fiscal year 2007, but yes, the five that pled 
guilty would be included in that. The immigrants, the illegal 
aliens that were arrested on administrative charges only would 
not be included in the criminal count.
    Senator McCaskill. OK. But if George's had occurred in the 
previous year, the five immigrants who pled guilty to being 
illegal would have been included in that 716 number?
    Ms. Myers. That is right, Senator.
    Senator McCaskill. And nobody from George's, the company, 
has been charged?
    Ms. Myers. The investigation is continuing.
    Senator McCaskill. And I keep seeing the word--in fact, I 
asked GAO about it when they were here, when we were talking 
about how well Homeland Security is doing, that you all go 
after egregious employers. But I will tell you, nobody can tell 
me what the definition of egregious is. GAO says your 
definition of egregious is it has to be an employer who has 
committed other criminal acts as well as hiring illegal 
immigrants. And then we get an answer from someone else at your 
Department that there is a different definition of egregious. 
Does anybody know what qualifies as egregious?
    Ms. Myers. Senator McCaskill, an egregious employer is an 
employer that has as their business model hiring illegal 
aliens. We often see with egregious employers that they commit 
other crimes, such as money laundering because they are paying 
everyone in cash to hide it, or tax evasion or other sorts of 
things. But the commission of other crimes is not necessary for 
it to be an egregious employer.
    I will tell you that we meet at headquarters, our 
headquarters team led by Marcy Forman and Kevin Sibley and 
others, direct investigations, and we are targeting the 
employers. And so if there is no employer liability or rampant 
identity theft that harms U.S. citizens, that is not a case 
that is pursued, and I would just mention, one thing that is 
frustrating for us is the amount of time that sometimes it 
takes to then bring a case against the employer, and I will 
just give, with respect to the Swift and Company enforcement 
action as an example.
    Although we charged a human resource manager in this case, 
that was actually 7 or 8 months after the initial part of the 
case which had revealed that a number of individuals were 
stealing the identities of U.S. citizens.
    Senator McCaskill. I want to make it clear, though, how 
quickly these cases go and whether or not they are prioritized 
is completely within the discretion of this Administration. 
That is the call of the Attorney General of the United States 
and the Justice Department in cooperation with Secretary 
Chertoff and your Department, and the idea that we have 716 
total criminal cases in an entire year when we have 12 million 
illegal immigrants, most of which are going to work every day, 
is not success. That is just simply not success. And frankly, 
there is nothing in the law that says it has to be part of the 
business plan. You all just decided egregious means part of the 
business plan.
    Let me use the example of Senator Voinovich, and this is a 
really good example he talked about. That employer did the 
right thing. That employer knew that something was fishy with 
those people whose Social Security numbers didn't match, and 
you are right. Most employers in the country are doing the 
right thing, and it is tremendously unfair to them that same 
person who bought that business and realized he didn't have 
papers for 125 thought to himself, I don't need to do anything, 
because you know what? I am never going to spend a day in jail. 
Maybe there will be some administrative hassle, maybe if they 
catch me, which by the way would be like winning the lottery. I 
mean, you understand that we are talking about if you add 
together shark attacks and deaths attributed to lightning and 
Power Ball winners, we are talking about the categories of 
actually facing serious criminal prosecution for hiring illegal 
immigrants.
    I hope you do not take it personally, but if somebody can't 
tell me how many employers in this country have been criminally 
charged for looking the other way, just like those bar owners 
who look the other way with that obvious fake ID, if somebody 
can't tell me that number between now and the time we vote on 
this confirmation, I can't vote for it. I need to know that you 
all care enough to be able to keep the statistic of how many 
employers are being held accountable.
    Ms. Myers. Senator McCaskill, I certainly share your 
concern, and I really appreciate the support that you are 
bringing to us to charge employers and to hold them accountable 
and to hold them accountable on crimes that will actually 
result in jail sentences and so they will not end up with mere 
slaps on the wrist as was the previous practices. I believe 
that our methods of using criminal and civil is a rational 
basis, a rational way for the system to operate, but we 
certainly will work with you to provide you whatever 
information that we need, and I think your continued support, 
frankly, not only of this agency but of the Department of 
Justice to bring these cases and prioritize these cases--we do 
occasionally feel that these cases are not prioritized as much 
in other places as we would like and so----
    Senator McCaskill. I will tell you, I think if you get them 
in front of juries, I think you are going to be shocked how 
they are prioritized. And I am willing to bet there hasn't been 
more than a handful of jury trials on this since you took this 
job with a recess appointment. Having done an awful lot of 
courtroom work in front of juries, I will tell you, the 
American people want the playing field leveled and they want us 
to turn the corner on this problem, and we will never turn the 
corner with more people on the border, with more round-ups, 
with more detention facilities. The only way we are going to 
turn the corner on this problem is if employers in this country 
realize they are going to be held accountable for hiring 
illegal immigrants, and so far, they are not worried.
    Ms. Myers. Well, Senator McCaskill, I would say that I do 
believe that we are seeing a difference with our three-part 
strategy of focusing on critical infrastructure, targeting 
egregious employers, and encouraging compliance, that we are 
doing things. We realize we will never have enough agents to 
conduct an I-9 inspection in every business in this country, 
and that is why the Administration has done things such as the 
promulgation of a ``no match'' rule to give employers the 
guidance that we believe they need in order to figure out what 
they should do when they receive a ``no match'' letter. We have 
to create a culture of compliance within companies. I think our 
limitive actions have started to take that. I think you are 
going to continue to see some good results, some record fines, 
and hopefully some record prison sentences, as well.
    Senator McCaskill. OK. I will be obnoxiously attentive to 
it.
    Ms. Myers. Great. Thank you, Senator.
    Senator Akaka [presiding]. Thank you, Senator McCaskill.
    Because of budget shortfalls in the Federal Protective 
Service, ICE has been reducing the number of FPS officers and 
increasingly relying on contract security guards. A recent DHS 
Inspector General report found that ICE is not consistently 
using qualified guards and also not supervising them 
effectively. Because of that, I am troubled that we might be 
leaving ourselves vulnerable to attacks on Federal Government 
buildings. I want you to know that I cosponsored an amendment 
because of this concern in the Senate DHS appropriations bill 
that would require that at least 1,200 FPS employees would 
protect our Nation's buildings. The provision directs OMB and 
DHS to adjust security fees to fund these positions. Given that 
this amendment addresses the funding issue, do you support it? 
Do you know about that and what do you think about it?
    Ms. Myers. Thank you, Senator Akaka. I do support the 
Administration's view on making sure that FPS is managed in a 
proper way. I would say that FPS has been an area of 
substantial concern. As you note, it is a fully fee-funded 
entity, and although we proposed a historic increase for FPS, 
that still would not allow the agency to cover the 1,200 
individuals who are there.
    With respect to the contract guards, the contract guards 
have and will continue to be really the front line of defense 
at Federal buildings. But what you note is that we need to make 
sure we have appropriate oversight in the hiring and the 
maintenance of the guards, and so no matter how many 
individuals are Federal employees at FPS, I think it is 
important that we move toward an inspector-based workforce, and 
that would be individuals who are better able to manage the 
contract guard population and to provide sufficient oversight 
of the contract guard population to make sure that they are 
doing the right thing.
    The inspectors are individuals that have all the same 
police authorities. They carry a gun. But they also have the 
additional sophisticated training that would allow them to work 
more closely with the building security committees and with 
others to make sure that we have the appropriate oversight of 
Federal buildings.
    I really appreciate the Senate's interest and concern in 
really correcting the problem, the legacy problem of FPS. When 
it came to DHS, it was not funded properly. It has had a 
significant funding problem all the years, and I would welcome 
any sort of change that provides FPS with the necessary funding 
it needs to get the job done.
    Senator Akaka. One of my concerns about contract security 
guards, as you mentioned here, generally, has been that they 
are not sworn law enforcement officers. Am I correct?
    Ms. Myers. They are not sworn law enforcement officers in 
the same way that the Federal FTEs are, that is right.
    Senator Akaka. You train them, train them well, but they 
are not sworn law enforcement officers.
    Ms. Myers. They are not Federal law enforcement officers, 
yes.
    Senator Akaka. They have only citizen arrest powers, I 
understand, the same as you and me. Police officers can arrest 
suspects with probable cause but a citizen arrest requires 
actually seeing a crime committed. Do contract guards have to 
call 911 and wait for a response if they believe that someone 
is about to commit a crime?
    Ms. Myers. Senator, it would depend on the particular 
circumstances. Certainly contract guards every day do 
tremendous things in protecting our Federal buildings. I happen 
to believe the Federal FTEs, the men and women of FPS, the 
police officers and inspectors are some of the finest this 
country has and they do a terrific job. Obviously, if they are 
at a building, they are able to respond and help. But even in 
today's circumstance, there are many buildings where there is 
no permanent Federal FTE, and we are reliant primarily on the 
contract guards working in close coordination with State and 
local law enforcement.
    Senator Akaka. You have indicated that improving conditions 
for immigration detainees is one of your top priorities. These 
detainees include asylum seekers and others who have committed 
no crime. I understand that you oppose issuing regulations 
governing treatment of immigration detainees. Why is that?
    Ms. Myers. Senator, it has been one of my highest 
priorities to make sure that the ICE National Detention 
Standards are adhered to and followed, and to that end, I have 
created over the past year a number of new oversight 
mechanisms, including the Detention Field Inspection Group, 
including our new Quality Assurance Specialists who are going 
to be at our 40 largest facilities, who day in and day out are 
responsible for making sure that the detention standards are 
followed. We are also currently in the process of updating and 
improving our detention standards to make them more 
performance-based. That is something that is much easier to do 
since our standards are not in regulation. We are obviously 
going to work with the ABA and NGOs and others to make sure we 
do not dilute any of the standards but only strengthen them.
    The final thing that we have done to enhance oversight on 
the standards is we have created, for our IGSA contracts, a new 
boilerplate that really emphasizes the responsibilities that 
these contract facilities have in making sure we live up to the 
standards of ICE.
    Senator Akaka. Before I call on Senator Tester, let me ask 
this final question. In some worksite enforcement raids, ICE 
agents detain large numbers of people, sometimes hundreds of 
workers in a single action. During a raid, how do ICE agents 
determine which workers should be questioned about their 
immigration status or possible criminal violations?
    Ms. Myers. When we conduct an enforcement action at a 
worksite, everyone is questioned with regard to their 
immigration status. We also use self-identify. If individuals 
indicate that they are U.S. citizens, they are not questioned 
in the same sort of way. We follow the procedures set out in 
the Supreme Court's decision in Delgado to make sure that we 
handle everything appropriately, and I have implemented the 
policy for our large worksite enforcement operations of always 
having an ICE lawyer on site to make sure that we are following 
everything correctly, if there is a legal issue or concern that 
comes up, that it is handled. And, of course, we work ahead of 
time with the Department of Justice on the Blackie's warrants 
or Rule 41 warrants to make sure that we execute them 
appropriately.
    Senator Akaka. On that, if a worker informs ICE agents that 
he is a U.S. citizen or legal immigrant but did not happen to 
bring proof with him to work the day of the raid, what happens? 
Does ICE assume unlawful status unless a person can prove 
otherwise?
    Ms. Myers. No, we do not assume unlawful status unless a 
person can prove otherwise.
    Senator Akaka. Thank you so much for your responses.
    Ms. Myers. Thank you.
    Senator Akaka. Senator Tester.
    Senator Tester. Thank you, Chairman Akaka. It is 
interesting, after every person asks a question it brings up 
about 10 more that I want to ask, but we will hold off.
    I am just curious. How many people are in the audience that 
work for DHS or ICE? Raise your hand.
    [Show of hands.]
    Senator Tester. We could use you on the northern border. 
[Laughter.]
    I do want to touch a little bit on resources and contract 
guards. You are pretty good with the finances, as people have 
pointed out. How much money do you save with contract guards 
over FTEs?
    Ms. Myers. For FPS, we are not saving money through the 
contract guards versus FTEs. They are apple and oranges. The 
fees for the contract guards are paid directly by the buildings 
out of different sorts of funds. The FTEs are paid through the 
building basic security fees, so that is not----
    Senator Tester. So it is done because of the appropriation 
methods that we use? We put it in a certain account that you 
can't use it for FTEs but you can use it for contract guards?
    Ms. Myers. FPS has no appropriated funds, so it is a fee-
based agency. And so we set a basic security fee that is then 
paid by the participating buildings. That fee is presented in 
the President's budget and then Congress approves it through 
the appropriations process. With respect to the contract 
guards, the buildings themselves are able to determine through 
their building security committee what sort of level of 
protection they would want.
    Senator Tester. Are there things we can do to give you more 
flexibility? The impression I have, and correct me if I am 
wrong, is you are really dealing with the really bad folks. I 
mean, for the most part, you are going to put your focus on the 
bad people, and it would seem to me that if you are dealing 
with the really bad people, you would want people who are not 
folks who can make citizens' arrests, but folks who can really 
do the job that you have to do when you are dealing with folks 
who are criminals.
    Ms. Myers. I think your question goes to two different 
things. With respect to the protection of the Federal 
buildings, which is where FPS is involved, I think, 
fortunately, although this year they kept 780,000 prohibited 
items from coming into Federal buildings----
    Senator Tester. But if it is important enough to have a 
guard at that building, isn't it important to have a person who 
is absolutely, unequivocally the best at what they can do?
    Ms. Myers. I think that the contract guards do a terrific 
job, and I think there are some great examples of their doing a 
terrific job. On a personal basis, speaking solely for myself 
and not as a representative of the agency----
    Senator Tester. I hear you.
    Ms. Myers. Speaking solely for myself, I think it would 
make sense to look long-term about FPS's financial needs and 
whether or not some small appropriated base to make up for the 
deficit left by the move from GSA would make sense.
    Senator Tester. OK.
    Ms. Myers. That would not transform the agency into having 
all Federal FTEs do the work of contract guards. I think that 
is a broader decision that Congress and the Department will 
have to look at.
    Senator Tester. OK. The issue about interagency agreements 
that we talked about last week a little bit, and that is do you 
have agreements with cities, counties, highway patrols, those 
kind of folks? Do you look to them to help make your resources 
go further?
    Ms. Myers. Absolutely. We have a number of different kinds 
of agreements with State and local and our other Federal 
partners.
    Senator Tester. Then do you just deal with the ones that 
are high-risk or do you have agreements with most of the 
counties that run along the northern tier and the southern 
tier?
    Ms. Myers. We have different kinds of working relationships 
in every place we have a presence. With respect to the 287(g) 
program, which provides for delegation of immigration 
authority, we do not have any agreements like that to date 
along the northern border, but we work with our northern border 
partners and the RCMP, for example, on the IBETs and hopefully 
in the coming year on our Border Enforcement Security Task 
Force.
    Senator Tester. OK. Well, the bureaucracy is huge, and it 
is very difficult for a farm boy from North Central Montana to 
get my arms around everybody who has control. I mean, you have 
Customs and Border Protection, you have got you guys, you have 
a ton of folks that are dealing with illegal aliens and legal 
aliens. It would just seem to me, I think that there is 
opportunity, let us just put it that way, to help your dollars 
go further and be as effective as you can, since your resources 
are limited, as you stated, to really develop at least the 
communication channels at a very minimum and ultimately down 
the line. They can help supplement your ability to be 
effective.
    Ms. Myers. Senator, I think you are absolutely right. I 
just created a new Senior Executive Service position in my 
front office. It is the Office of State and Local Coordination. 
And that individual is going to help draw together all the ways 
we work with State and locals and make sure that we are forming 
as many partnerships as we can. We also have the ACCESS 
Program, which has a range of services we can provide to state 
and locals. Where is their concern? Is their concern with 
transnational gang members? We might be able to work with them 
on Operation Community Shield and the like. So I am in full 
agreement with your point.
    Senator Tester. Well, I appreciate your leadership within 
the Department, and I appreciate your putting up with all these 
questions. Thank you very much.
    Ms. Myers. Thank you.
    Senator Akaka. Thank you very much, Senator Tester.
    I would like to conclude the hearing by asking two very 
brief questions, Ms. Myers. One is are the ICE agents who 
conduct worksite raids trained not to engage in racial 
profiling?
    Ms. Myers. Yes, they are. Every agent is trained pursuant 
to DOJ's racial profiling guidance both at the academy and then 
prior to a worksite operation, we go through an operational 
plan and they are reminded again of their responsibilities and 
obligations.
    Senator Akaka. Also, if a request is made by one of the 
immigrants to speak to a lawyer before answering questions, do 
the agents let them do so?
    Ms. Myers. Yes, they do.
    Senator Akaka. Well, I want to thank you so much for your 
responses. It will be very helpful to this Committee as we 
decide your confirmation. I would tell you that, generally, 
this Committee has felt that you have done well----
    Ms. Myers. Thank you.
    Senator Akaka [continuing]. In your work and certainly look 
forward to your work here for our government.
    So I would like to thank you very much for appearing before 
this Committee. Without objection, the record will be kept open 
until 12 noon tomorrow for the submission of any written 
questions or statements for the record.
    Ms. Myers. Thank you.
    Senator Akaka. This hearing is adjourned.
    [Whereupon, at 12:02 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


                 PREPARED STATEMENT OF SENATOR DOMENICI

    Mr. Chairman, I would like to make a brief statement in support of 
the nomination of Julie L. Myers to be Assistant Secretary, U.S. 
Department of Homeland Security.
    Ms. Myers was very helpful to my home state of New Mexico this year 
when violence in Palomas, Mexico, threatened to spill over into 
Columbus, New Mexico. She was one of the most responsive Federal 
officials I dealt with during this crisis and quickly sent more 
Immigration and Customs Enforcement personnel to New Mexico to address 
this situation.
    I am thankful for her efforts in New Mexico and across America, and 
I am pleased to voice my support for her nomination.

                               __________

  PREPARED STATEMENT OF SENATOR PAT ROBERTS, A U.S. SENATOR FROM THE 
                            STATE OF KANSAS

    Mr. Chairman, I am honored to submit a statement on behalf of a 
fellow Kansan whom the President has nominated to be the Assistant 
Secretary of Homeland security for Immigration and Customs Enforcement.
    I believe Julie Myers' previous Administration positions strongly 
underscore her experience during difficult times in our Nation's 
history.
    Currently, Julie serves as the Assistant Secretary of Homeland 
Security for Immigration and Customs Enforcement. As Assistant 
Secretary, she increased and expanded worksite enforcement efforts. 
Julie also assisted in ending the practice of ``catch and release.''
    Julie also served as the Assistant Secretary for Export Enforcement 
at the Department of Commerce. As Assistant Secretary, she developed 
and coordinated the Department's efforts to prevent and sanction 
violations of U.S. dual-use export control laws and the antiboycott 
provision of the Export Administration Act. She managed special agents 
throughout the country and oversaw the international attache program.
    Julie served as the Chief of Staff of the Criminal Division for 
Assistant Attorney General Michael Chertoff at the Department of 
Justice and as the Deputy Assistant Secretary for Money Laundering and 
Financial Crimes at the Department of Treasury. There she fought 
against financiers of terrorism and implemented a national strategy to 
combat money laundering.
    Julie also served as an Assistant U.S. Attorney in the Eastern 
District of New York, where she prosecuted financial criminals, and as 
a deputy to Independent Counsel Kenneth Starr.
    The President, the Secretary of Homeland Security, and many of our 
colleagues and I believe in her abilities to carry out this position.
    Mr. Chairman, I am certain that Julie Myers, armed with her 
knowledge and passion for our judicial system, will enforce our 
immigration and custom laws and policies with a firm and fair hand.
                               __________
                               [GRAPHIC] [TIFF OMITTED] T8843.001
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.002
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.003
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.004
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.005
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.006
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.007
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.008
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.009
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.010
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.011
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.012
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.013
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.014
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.015
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.016
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.017
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.018
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.019
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.020
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.021
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.022
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.023
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.024
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.025
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.026
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.027
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.028
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.029
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.030
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.031
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.032
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.033
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.034
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.035
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.036
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.037
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.038
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.039
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.040
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.041
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.042
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.043
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.044
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.045
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.046
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.047
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.048
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.049
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.050
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.051
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.052
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.053
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.054
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.055
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.056
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.057
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.058
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.059
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.060
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.061
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.062
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.063
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.064
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.065
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.066
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.067
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.068
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.069
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.070
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.071
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.072
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.073
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.074
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.075
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.076
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.077
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.078
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.079
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.080
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.081
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.082
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.083
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.084
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.085
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.086
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.087
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.088
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.089
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.090
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.091
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.092
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.093
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.094
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.095
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.096
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.097
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.098
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.099
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.100
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.101
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.102
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.103
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.104
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.105
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.106
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.107
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.108
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.109
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.110
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.111
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.112
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.113
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.114
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.115
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.116
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.117
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.118
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.119
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.120
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.121
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.122
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.123
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.124
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.125
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.126
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.127
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.128
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.129
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.130
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.131
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.132
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.133
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.134
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.135
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.136
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.137
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.138
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.139
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.140
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.141
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.142
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.143
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.144
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.145
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.146
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.147
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.148
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.149
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.150
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.151
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.152
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.153
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.154
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.155
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.156
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.157
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.158
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.159
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.160
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.161
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.162
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.163
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.164
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.165
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.166
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.167
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.168
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.169
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.170
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.171
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.172
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.173
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.174
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.175
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.176
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.177
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.178
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.179
                               
                               [GRAPHIC] [TIFF OMITTED] T8843.180
                               
                                 <all>

</pre></body></html>
